     Department of Health and Human Services
.
              OFFICE OF
        INSPECTOR GENERAL
—




    THE SANCTION REFERRAL AUTHORllY
      OF PEER REVIEW ORGANIZATIONS




               APRIL 1993   OEI-01-92-002S0
—



—



—




.-
                  EXECUTIVE                         SUMMARY


    PURPOSE

    The purpose of this study is to assess the trends and problems associated with the
    Peer Review Organizations’ use of their sanction referral authority.

    BACKGROUND

    Since their establishment in 1982, the Peer Review Organizations (PROS) have
    reviewed millions of inpatient medical records to confirm the necessity, quality, and
    appropriateness of care rendered to Medicare beneficiaries. One controversial aspect
    of the PROS’ responsibilities has been their sanction referral authority, which requires
    them to recommend that the Office of Inspector General (OIG) sanction physicians
    and hospitals responsible for violating their Medicare obligations, as specified in
    section 1156(a) of the Social Security Act. If the OIG accepts a PRO’s
    recommendation, it can sanction physicians and hospitals by excluding them from
    participating in Medicare and all State health care programs or by imposing a
    monetary penalty.

    In this report, we provide an update on the extent to which the PROS have been using
    that authority and the difficulties they experience with it. We offer three options for
    policymakers to consider. We reviewed the PRO sanction referral data for FYs 1986
    through 1992 and intemiewed representatives of 10 pROs. Among those 10 were
    PROS that, during Fiscal Years 1990 and 1991, had made at least 1 referral leading to
    a sanction, PROS that had made referrals that were rejected by the OIG, and PROS
    that had made no referrals.
.

    FINDINGS

    PRO sanctbn rejkn=ds have dwhdki

    �	     PRO sanction referrals to the OIG have fallen from a high of 72 in FY 1987 to
           a low of 12 in FY 1991 and 14 in FY 1992.

    �	     PROS for seven States have never referred a physician or hospital for sanction.
           Twenty-three of the 43 PROS have referred no physician or hospital for
           sanction in FYs 1991 and 1992.

    F	     OIG sanctions based on PRO referrals have fallen from a high of 50 in
           FY 1987 to a low of 6 in FY 1992. Only 1 monetary penalty has been imposed
           since FY 1988.




                                                i
71iree major factom account for the drop h sanctiim rflemak

E      The statutory unwilling or unable requirement remains a significant barrier to
       sanction referrals. This requirement stipulates that even where physicians or
       hospitals have violated Medicare obligations, they cannot be sanctioned unless
       they have demonstrated an “unwillingness or lack of ability” to comply with
       those obligations.
                                                                                           —
F      The PROS’ negative experiences with the sanction process deter referrals.
       They see the process as costly, complex, and contentious, and are unsure that
       their recommendations will be upheld.

F      The PROS see themselves increasingly as educators in addressing quality-of-care
       problems.

Despite dwindlihg refemak, all the PRO oficiak we titetied     belkve that the sanctiixz
refemal authmity & important to achievikg their rniwion because it gives them kvemge
with the medikal commun”w=
                                                                                           —
POLICY OPTIONS

Given our findings and the moribund state of the PROS’ sanction referral authority,
                                                                                           —
we believe the authority needs reexamining. In that light, we offer three options for
consideration by the Department of Health and Human Services, the Congress,
interest groups, and other concerned parties. The options are not mutually exclusive.
                                                                                           —
Any of the three could be adopted separately, but in combination they could
substantially strengthen protection for Medicare beneficiaries under the PRO program.
                                                                                           —
F Re~al or substantiidly modifi the unwillikg or unable requirement

E Ihcrease the monetary penalty sanction substantidy.                                      —

F Maihtaih PROS’ sanction referral authon”tyas it exiYtsnow, but mandatt? refmaik to
State medical boanik when PROS confiim serious quality-of<are probkmx

CmiMJmm
                                                                                           —
We received comments on the draft report from the Health Care Financing
Administration (HCFA), Public Health Service (PHS), and Assistant Secreta~ for
Planning and Evaluation (ASPE) within the Department. The American Medical
Association (AMA), American Medical Peer Review Association (AMPRA), and
American Association of Retired Persons (AARP) also provided comments. The full
text of the comments and our responses to each appear in appendix C.

The HCFA and AMA oppose changes in the unwilling and unable requirement, while
PHS, AMPR~ and AARP support its repeal or modification. The HCF~ PHS,


                                            ii
ASPE, AMPIQ and HP           support increases in the monetary penalty, while the
AMA opposes it.

With regard to the third policy option, HCFA indicates it will consider this option in
its development of regulations that govern the sharing of confidential information
between PROS and State medical boards. The PHS sees merit in requiring PROS to
report serious quality-of-care cases to State medical boards, but cautions that this
option could require that State boards add to their investigatory and monitoring
capacity. The ASPE does not support this proposal, citing the pending fourth scope of
work, and a potential for parallel investigation by pROs and medical boards. The
AMA supports this option conceptually for “serious quality-of-care problems that have
been confirmed by the PRO following specialty-specific physician review and
completion of due process rights at the PRO level.” The AMPRA and AARP support
mandating referrals to State medical boards when PROS confirm serious quality-of-
care problems.

Each of the respondents, both within the Department and from outside organizations,
expressed concerns that two of the options proposed in the draft report could have
negative consequences: Elimination of the sanction referral authority and providing
that authority directly to the PROS. In response to their comments, we eliminated
these policy options from the final report.




                                          ...
                                          111
                      TABLE                                    OF CONTENTS


Executive Summary

Introduction .   . . . . . . . ,.   .   ...0      �   00...,          . . . . . . . .                               ...00.                             �      ..**.*                                  .0             ...00                  �   *
   . .       1

Findings

    Dwindling referrals . . . . . . . . . . . . . .                   �    �        ...0.                   .       .        ...00                     .      .        .       ...0                   �     *...**                          �   0
   . .      3

    Factomaccounting forthe drop . . . . .                            .    .        .       .   .   .   .   ..               00...                     .      .        .       .      .   .       .   �     0000..                          �   0
   �    �   5

    PRO suppoti for referral authority                          ...   ..            0.0..                   .       .        .       .   .     .   .   .      ..*...                                  .*             ***=*                  �   *
   .0       7

Poliqmptions. . . . . . . . . . . . . . . . . . . .                   �    ..0...                           .       .        ..          *O.           .0              .00..                          9******                               �   O
   ,0       8

Comments on the Draft Report . . . . . . .                            �    ..0.0                        �   .0...                              .   .   ...0                           �   ..0..                              �     *****
            .        10

Appendices

                          .

     A   Statutory Provisions                  ..........             . . . . . . . . . . . . . . . . . . .                                                                               ..0..                              ..0=0.
                      A-1

     B: Overview of Data from the Office of Investigations                                                                                         . . . . . . . . . . . . . . . . .
 B-1

     c: Detailed Comments on the Draft Report                                                           . . . . . . . . . . . . . . . . . . . . . . . .
 c-1

     D: Endnotes       . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .
 D-1
—



—
                                INTRODUCTION

     PURPOSE

     The purpose of this study is to assess the trends and problems associated with the
     Peer Review Organizations’ use of their sanction referral authority.

     BACKGROUND

     Since their establishment in 1982, the Peer Review Organizations (PROS) have
     reviewed millions of inpatient medical records to confi~m the necessity, quality, and
     appropriateness of care rendered to Medicare beneficiaries. Although at first PROS
     functioned primarily as cost controllers, legislative, regulatory, and contractual changes
     have shifted their focus increasingly toward quality assurance.

--   The PROS’ Sanction Referral Authority

     One controversial aspect of the PROS’ responsibilities has been their sanction referral
     authority. This authority requires the P120s to recommend that the Office of
     Inspector General (OIG) sanction physicians and hospitals in two instances. One
     involves physicians and hospitals who substantially violate their Medicare obligations in
     a substantial number of cases, as specified in section 1156(a) of the Social Security Act
     (see appendix A).1 In this instance, the PRO must identi~ a pattern of inappropriate
     or unnecessary care. The other instance involves those who grossly and flagrantly
     violate their obligations, even in a single case. To find a gross and flagrant violation,
     the PRO must find that the violation placed the Medicare beneficiary in danger.

     To make either type of referral to the OIG, the PRO must also provide a
     recommendation that supports that the physician or hospital “has demonstrated an
     unwillingness or lack of ability substantially to comply”z with the Medicare obligations
     (hereafter referred to as the unwilling or unable requirement).     If willingness or ability
     to comply is demonstrated, then that physician or hospital cannot be sanctioned.

     The Secretary of Health and Human Sex-vices,rather than the PROS, is authorized to
     impose sanctions against Medicare providers. The Secretary has delegated that
     authority to the OIG. Upon receiving a referral from a PRO, the Inspector General
     can accept, modi&, or reject the PRO’s recommendation.      The Inspector General may
     exclude the physician or hospital from participating in Medicare for a period of time
     or may impose a monetary penalty that cannot exceed the cost of the medically
     unnecessary or improper services rendered.

     Sanctioned physicians and hospitals can appeal their sanction to administrative law
     judges (ALJs) within the Department, who conduct hearings and can affirm, reverse,
     or modi~ the sanction imposed by the OIG. AU decisions can be appealed to the
     Departmental Appeals Board, and then to Federal district courts.


                                                   1
In a prior report, we addressed issues concerning the J?ROS’ sanction referral
authority.3 We noted the low level of sanction activity among the PROS, the conflict
between the PROS’ educational and enforcement roles, and problems with interpreting
the regulations and providing adequate due process protection.
                                                                                              —

In this report, we provide an update on the extent to which the PROS have been using
their sanction referral authority and any difficulties they continue to experience with it.
We conclude the report with three options for policymakers.

Methodology

We draw on three sources of information for this study: (1) analysis of the PRO
sanction data from FY 1986 through Fy 1992 maintained by the OIG, (2) telephone
                                                                                              —
interviews with staff from a purposive sample of 10 PROS4 and other groups
interested in sanction activity, including regional staff from the Health Care Financing
Administration (HCFA) and OIG, and representatives of the American Medical Peer                   .
Review Association, the American Medical Association, the American Hospital
Association, and the American Association of Retired Persons, and (3) a review of the
relevant literature. We chose the 10 PROS in such a way as to ensure that our sample
contained PROS that, during FYs 1990 and 1991, had made at least 1 referral leading
to a sanction, PROS that had made referrals that were rejected by the OIG, and PROS
that had made no referrals.                                                                       —

We conducted our review in accordance with the Interim Standards for Inspections
issued by the President’s Council on Integrity and Efficiency.




                                                                                              .




                                                                                              —



                                                                                              —




                                            2
                                             FINDINGS

PRO sanctiim rejimuik huve dwindti

F      PRO sanction referrals to the OIG have fallen from a high of 72 in FY 1987 to
       alowof12in   W1991and14ti        FY 1992.

                                                       FIGURE       1

                                   PRO SANCTION~                        TO OIG
                                          FY 1986-FY 1992
                                    72


              60-



              so-


              40-
                                37

              30-
                                                                        29
         la

         !!   20-



              10-


               o–
                      1986         1987          1988                   1990     1991   l!xn
                                                        ImcAYkR
     Sourux Officeof Investigations, Offii   of Inspector General




During the first 2 years of the program, the PROS referred 138 physicians and
hospitals for sanction (figure 1). This was the peak level of activity. In the next five
years, though the number of physicians in the United States rose steadily,b the PROS
used the sanction referral authority much less often. In fact, by FY 1992 they were
hardly using it at all.

Throughout the seven-year period, the PROS have referred many more physicians
than hospitals (see appendix B). All but 17 of the 252 PRO sanction referrals made
between FYs 1986 and 1992 involved physicians. And all but 1 of the 55 referrals
made in the last 3 fiscal years involved physicians.




                                                             3

  �	           PROS for seven States have never referred a physitim or hospital for sanction.
               Twenty-thr= of the 43 PROS have referral no physitia or hospital for
               sanction in FYs 1991 and 1992.

  Four of the seven States with no PRO sanction referrals are in New England:
                                                                                                      .
  Connecticut, Massachusetts, Rhode Island, and Vermont. The others are Alaska,
  Wyoming, and Hawaii.’

 The 23 PROS8 that made no referrals in FYs 1991 or 1992 are responsible for States
 having more than 160,000 patient-care physicians.g These States are scattered
 throughout the country.


 b	            OIG sanctions based on PRO referr~ have fallen horn a high of 50 in                    —
               l?Y 1987 to a low of (j b Fy 1$)$)2. Ody 1 monc~ ~n~ty   h=  ~n    im@

               SiIICe FY 1988.

                                                            FIGURE 2

                                 PRO-RE~                 SANCI’IONSIMPOSEDBY OIG
                                                        W       1986-   FY   1992




                                     so
                                    —
                                                                              &gC&i

                                                                        —
                                                                        I     l--’Y-



                                                22
                                              w
                                                                        14
                                                            11                      12

                                                                                           6      .

                                                r           I           t                   1
                         1986      1987       1988 1989     1990
                                                                                     I


                                                                                    1991   1992
                                                 FISCALYEAR
       Sourw    Office of Invesugatbm,   Office of Inspeuor General




The drop in OIG sanctions reflects the drop in the PRO sanction referrals on which
the OIG actions are based. The peak of activity occurred in the earliest years of the
PRO program (figure 2). And as with referrals, more physicians than hospitals have
been sanctioned.l”



                                                                   4

    Each year, exclusions have outnumbered monetary penalties (see appendix B), which
    are limited to Medicare’s cost of that portion of the care deemed medically
    unnecessary or improper. The costs to the OIG and the PROS of pursuing monetary
    penalties usually have exceeded the amount of the fines. The fines have ranged from
    $65.44 to $17,512.11, but average less than $5,000.11 Exclusions have ranged from
    six months to permanent, with a mean length of three years.12


    l%ree major factom account for the dkop ih sanctin re$ewak

    �      The statutory unwillingor unable requirement remains a significantbarrier to
           sanction referrals. This requirement stipulates that even where physiciansor
           hospitals have violated Medicare obligatio~ they cannot be sanctioned unless
           they have demonstrated an “unwillingnessor lack of ability”to comply with
           those obligations.

    In our 1988 study, we reported that the statutory unwilling or unable requirement was
    a major flaw that undermined the effectiveness of the PROS’ sanction referral
    authority. Drawing on interviews with all the PROS, we noted that they were confused
    over what documentation was necessary to establish unwillingness or inability.13

    Shortly after we issued that report, the Administrative Conference of the United
    States reached a similar conclusion based on its own review. In its 1989 report, it
    stated that the violations the PROS and the OIG find to be substantial or gross and
    flagrant “already serve as indicators of inability or unwillingness to comply.” It added
    that the requirement calls for the PROS and OIG to “prove what amounts to a
    speculative negative” and is an “inappropriate” burden of proof.14

    Despite an attempt to make the requirement more workable, it remains an obstacle.
    Congress, through the Omnibus Budget Reconciliation Act of 1990 (PL 101-508),
    attempted to clarify the unwilling or unable requirement. It specified that PROS could
    accept a physician’s failure to participate in a corrective action plan (CAP)15 as a
    demonstrated unwillingness or inability to comply. Despite that clarification, PRO
    officials told us that as long as a physician agrees to a CAP, it remains exceedingly
    difficult to proceed with a sanction referral. One PRO official noted that a physician’s
    lack of response to repeated calls and letters from the PRO was not considered
    evidence of unwillingness or inability.

    The PROS’ experiences with the unwilling or unable requirement have made them
    cautious in making sanction referrals. They remain keenly aware that it has accounted
    for more OIG rejections of PRO sanction referrals than any other reason. From FY
    1986 to FY 1992, 42 of the 106 sanction referrals rejected by the OIG have been
—
    because of the unwilling or unable requirement (see appendix B). Among the 10
    OIG-imposed sanctions that have been reversed by the ALJs, 3 were based on that
    requirement.



                                                5
E	     The PROS’ negative experiences with the sanction process deter referrals.
       They see the process as costly, comple~ and contentio~ and are unsure that
       their recommendations willbe upheld

PRO officials cited the high costs in staff, time, and funds in referring sanctions to the
OIG. As they had in our earlier report,lG they noted contending with late and
inadequate payments from the Health Care Financing Administration (HCFA) for
sanction-related legal and expert witness fees. A PRO often spends many months
preparing the referral, but receives supplemental reimbursement for legal fees only if
and after a case is referred to the OIG.

Interpreting instructions governing the sanction referral process from HCFA and the
OIG has also confused the PROS. For example, PRO officials cited HCFA’S
instruction “that corrective action plans (CAPS) be used in al] but the most egregious
situations.”1’ The PROS expressed uncertainty on how to interpret “egregious.” That
word never appears in the statute--which calls for CAPS only “if appropriate.”   They
also noted that HCFA’S requirement that they consider referring a physician or
hospital for sanction based on a single quality-of-care problem conflicts with OIG
guidance.

PRO officials cited frustrations with the due process protection, which were designed
to balance the physicians’ rights for due process and the beneficiaries’ need for quality
care. Although recognizing their importance, the PROS noted that ensuring those
protection complicates the referral process. Because the due process requirements for
gross and flagrant violations differ from those for substantial violations,18 referrals
involving both types become even more complex. And with expert witnesses and
attorneys involved, the process often becomes contentious.

From their experience with the sanction process over the years, the PROS understand
that any of these factors can undermine the process. The OIG has rejected referrals
not only on the ground of the unwilling or unable requirement but also on grounds
that the PROS failed to follow regulato~ requirements, such as those that guarantee
due process19 (42 rejections). And finally, the OIG has rejected referrals based on
insufficient medical evidence (20 rejections) .20 The ALJs have overturned OIG-              —
imposed sanctions on similar grounds.21 Although most sanctions appealed to an
~     (51 of 61) have resulted in some sanction being imposed, in many cases the
sanction terms were reduced during settlement (see appendix B).                              —



b      The PROS see themselves increasinglyas educators in addressing quality-of-e
       problems.

The thrust of the PRO program has been increasingly educational rather than
punitive. The move toward a more educational focus began with a shift from
utilization to quality review in the PROS’ second contract period (1986-88).22 The
third contract, which also stressed quality assurance, advanced this shift by adding


                                            6
    specific instructions for addressing quality-of-care problems with educational
    interventions. The HCFA has also expanded the use of educational CAPS over the
    years and now requires the PROS to use CAPS before making a sanction referral “in
    all but the most egregious situations.”u And the PROS’ educational slant is further
    bolstered in HCFA’S discussion of its emerging Health Care Quality Improvement
    Initiative in the fourth scope of work:

           In the Fourth SOW, HCFA begins a fundamental change in the way
           PROS carry out their responsibilities. PROS will place less emphasis on
           dealing with individual clinical concerns and focus more attention on
           helping physicians and providers improve the mainstream of care.x

    This shift toward education is in accordance with the continuous quality improvement
    movement emerging in the quality assurance field.x That movement stresses
    improving overall performance over identifying and correcting poor performers at the
    margin.

    The PROS consider sanction referrals as failures of their educational efforts, which far
    outnumber their sanction activities. According to HCF~27 4,140 physicians and
    1,327 hospitals received educational interventions from the PROS during the third
    scope of work, while they issued just 464 sanction notices.=

—
    Despite dwindling rejiemdk, all the PRO o-k     we interukwed bekkwe that the sanction
    rejimzl authaiiy k impatant to achievikg their znksiim because it giwx them kvemge
    with the mxikal community.

    The PRO officials stress that the value of their sanction referral authority is twofold:
.   (1) it is available when they need it to deal with those providing dangerously poor
    quality care, and (2) it provides a threat that gives the PROS clout with physicians and
    hospitals. When the PROS’ preferred educational approaches fail, they need the
—
    “teeth” or “stick” that the sanction authority provides. That threat can be enough to
    convince a reluctant physician to cooperate with a CAP. Without the authority, the
    PRO officials question whether the medical community would take their interventions
    seriously enough. They believe it exerts a sentinel effect that contributes to their
    overall mission.
                          POLICY               OPTIONS
As currently constituted, it is not at all clear that the PRO sanction referral authority
is helping to protect the public from poor medical care. We do not advocate a target
number of sanction referrals. Nevertheless, we are compelled to note that in FY 1992,
when more than 400,000 physicians were practicing in the United States, the PROS
made 14 sanction referrals.

PRO officials told us that the authority is important to achieving their overall mission.
The basic reason, as we have indicated, rests with the threat that the authority carries.
But as the medical community becomes more aware of just how infrequently the
sanction authority is used, that threat is likely to seem remote, even to the most
                                                                                            —
unskilled practicing physician.

We believe that the findings of this report identi$ a need to reexamine the PRO
                                                                                            —
sanction referral authority. We do not make formal recommendations, but we offer
three options as a starting point for discussion. The OIG has expressed support
previously for each of these options. 29 Given the moribund state of the sanction
referral authority, we believe that each option warrants serious consideration by the
Department, the Congress, interest groups, and other concerned parties.


E Repal or substantially modifi the unwilllng or unuble requirement

Upon finding that a physician has violated statuto~ obligations for participating in
Medicare, the PRO could make a sanction referral, without having to provide
additional evidentiary proof of unwillingness or inability. We recommended this in a
prior reportw and the OIG has developed a legislative proposal to delete the
separate requirement of a determination of “unwillingness or lack of ability.” This
proposal is under review in the Department.

??ZW Would make the referral process less cumbersome. Would enable PROS to
move more quickly on serious cases. Would base decisions on a physician’s
demonstrated ability and quality rather than speculation about future actions.

Cks: Could make PROS less eager to develop corrective action plans when
appropriate. Could be seen as conflicting with PROS’ educational and quality
improvement orientation.
                                                                                            —


�   Iiacrease the monetary penalty sanction substantially.
                                                                                            —

Current law restricts monetary penalties to the cost involved for Medicare. These
penalties could be increased to make them a more meaningful sanction. We
recommended this in a prior report31 and the OIG has developed a legislative

                                                                                            —
                                               8
    proposal to authorize penalties of   Up to   $25,000   in lieu   of exclusion. This proposal is
    under review in the Department.

    -:      Would provide an alternative to excluding a physician or hospital from
    participation in Medicare. Could help to reinforce the sanction threat. Could result
    in fewer appeals. Could help Government recover funds expended in sanctioning.

    Cons: Could appear as an inadequate sanction.          Could further discourage PROS from
    recommending exclusions when warranted.


    �  Maiktain PROS’ sandon refemal authdy as it && now, bti rnundate rejkrnzk to
    State medical boanik when PROS conjinn setius quality-of+are pmblenw

    The PROS would continue to refer cases to OIG as they currently do. This authority
    would be supplemented with a mandate to refer physicians responsible for serious
    quality-of-care problems to State medical boards, which would then investigate and
    take whatever action was necessary.32 Likewise, PROS could refer hospitals to their
    State licensure agencies. We recommend such a mandate in our recent report Z%e
    Peer Review Organizations and State Medical Boards: A V2talLink.33

    l%as: Adds its own threat apart from that of the sanction referral authority and its
—   constraints. Allows PROS to concentrate more fully on their educational mission.
    Allows for increased State-level peer review. Recent experiences from Ohio suggest
    that the approach has potential.w

    Cbns: Directs to State medical boards responsibility for reviewing quality of care in
    individual cases, not part of many boards’ current practice. Could require additional
—   investigatory and monitoring capacity. Raises possibility of PROS and boards taking
    conflicting approaches toward a physician. Could further discourage PROS from using
    their sanction referral authority. Board authority varies from State to State.
—




                                                   9

 COMMENTS                       ON THE               DRAFT              REPORT

We received comments on the draft report from the Health Care Financing
Administration (HCFA), Public Health Sex-vice (PHS), and Assistant Secretary for
Planning and Evaluation (ASPE) within the Department. The American Medical
Association (AMA), American Medical Peer Review Association (AMPRA), and
American Association of Retired Persons (AARP) also provided comments. The full
text of the comments and our responses to each appear in appendix C.

We have included updated figures on the number of sanctions imposed through Fiscal
Year 1992, because the more recent data are available. In the draft report, the data
were presented only through FY 1991. ne FY 1992 data provide further support to
our findings stated in the draft report.
                                                                                               —
We have omitted from the final report two policy Options that appeared in the draft
report--elimination of the sanction referral authority and providing that authority
directly to the PROS. We agree with the comments we received from all of the
respondents, both within the Department and from outside organizations, that
adopting either of these options could have negative consequences.

We discuss the remaining three options here. We wish to stress that these options are
not mutually exclusive. Any of the three could be adopted separately, but in
combination they could substantially   strengthen
                                               protection for Medicare beneficiaries
under the PRO program.


   �
       Repeal or substantiallymodi& the unwillingor unable requirement

The HCFA and AMA oppose changes in this requirement,            while PHS, AMP~        and     —
AARP support its repeal or modification.

Zhe unwilling and unable provision remains an obstacle to sanction referrals Despite
legislative changes in 1990 that attempted to clarifi the definition of unwilling or unable,
experience since then leaves little reason to believe that they have eased the problem. In
FY 1991, PROS referred 12 cases for sanction, and in W 1992 they refen-ed 14 cases. In
our interviews, the PROS themselves cited the provision as a continuing obstacle.

It k important that PROS have the capaci~ to use the sanction refen-al authority when it
h appropn”ate to do so, in order to protect Medicare benefician”esfi-om harm. In those
situations, the PROS should be able to move swiftly and effectively, without having to
speculate on the future behavior of individual physicians. The evidence on the physician h
past record should be su.cient to make this judgernent.




                                             10
       �
            Increase the monetary penalties substantially.

     The HCF~ PHS, ASPE, AMPR~             and AARP support this option, while the AMA
     opposes it.

     This option has widespread suppon within the Depa~ment. Clearly, an increase in the
     monetary penalties k necessary if thzk is to become an effective sanction. As curently
     constituted, thti provision is virtually meaningless. me amount of money involved k so
     small, that the threat of monetary penalties has little if any detenent effect. Only one
     moneta~ penalty has been imposed since FY 1988.


       �
            Maintain PROS’ sanction referral authority as it exists now, but mandate
            referrals to State medical boards when PROS confirm serious quality-of-care
            problems.

     The HCFA indicates it will consider this option in its development of regulations that
     govern the sharing of confidential information between PROS and State medical
     boards. The PHS sees merit in requiring PROS to report serious quality-of-care cases
     to State medical boards, but cautions that this option could have implications for the
     boards: it could require additional capacity for investigation and monitoring, and may
     not provide a uniform standard because States vary in their sanctions, authority, and
.—   practices. The ASPE does not support this proposal, citing the pending fourth scope
     of work, and a potential for parallel investigation by PROS and medical boards.

     The AMA      supports this option conceptually for “serious quality-of-care problems that
     have been    confirmed by the PRO following specialty-specific physician review and
     completion    of due process rights at the PRO level.” The AMPRA and *P            SUppOrt
     the option   to require this information exchange.

     X%k option would supplement the current provkion that PROS provide informahon to
     State medical boards after they have made a sanction referral to the OIG. The option
     presented in this report advocates that PROS share case information with medical boar~
     in sen”ousquality-of-care cases before a formal recommendah’on for sanction. Still, these
     cases would not be minor problems--the case reportz”ngwould take place a_ftera physician
     has interacted with PRO physicians and after PRO physicians have determined that this ti
     a sen”ousquality of care problem that requires attenh’on. Once such a problem is
     con.nned, the PRO would be required to provide the case information to the State
     medical licensure board. l%e boards already receive informa~”onabout physicians on
     malpractice claims and hospital advezse actions. It clearly makes sense for the boards to
     receive information from the PROS when they con.rm sen”ousquality-of-care problems
     after medical review.

     l%e fourth scope of work contains substantial changes in the role of the PROS. Included
     among these changes, PROS will be required to develop wn”ttenmemoranda of agreement
     with State medical boards. The HCFA could provide guidance to the PROS on the timing


                                                  11
and content of thti information exchange. The agency could specifi that thti information
sharing take place at the point when the PROS have conjirmed, after medical review, that
a physician is responsible for medical mismanagement resulting in significant adve~e
effects on the patient. Should it determine that legislation is necessa~ to effect thh
change, HCFA could propose such legislation.

We recognize, as PHS has pointed out, that implementing this option could require
additional resources and skills for many State boards. We have added these points in the
text that discusses th~ option.




                                            12
                                  APPENDIX                    A


                                  STATUTORY PROVISIONS



                     Obligationsof Health Care Practitioners and Providers
                       of Health Care Semice~ Sanctions and Penaltiw,
                                    Hearings and Review

                                        [42 U.S.C. 1320C-5]

          Sec. 1156. (a) It shall be the obligation of any health care practitioner and any
     other person (including a hospital or other health care facility, organization, or agency)
     who provides health care services for which payment may be made (in whole or in
—.   part) under this Act, to assure, to the extent of his authority that services or items
     ordered or provided by such practitioner or person to beneficiaries and recipients
     under this Act­

            (1) will be provided economically and only when, and to the extent, medically

            necessary;

—           (2) will be of a quality which meets professionally recognized standards of

            health care; and

            (3) will be supported by evidence of medical necessity and quality in such form

            and fashion and at such time as may reasonably be required by a reviewing

            peer review organization in the exercise of its duties and responsibilities.


          (b)(1) If after reasonable notice and opportunity for discussion with the
     practitioner or person concerned, and, if appropriate, after the practitioner or person
     has been given a reasonable opportunity to enter into and complete a corrective
     action plan (which may include remedial education) agreed to by the organization, and
     has failed successfully to complete such plan, any organization having a contract with
     the Secretary under this part determines that such practitioner or person has­

            (A) failed in a substantial number of cases substantially to comply with any

—           obligations imposed on him under subsection (a), or

            (B) grossly and flagrantly violated any such obligation in one or more instances,


     such organization shall submit a report and recommendations to the Secretary. If the
     Secretary agrees with such determination, and determines that such practitioner or
     person, in providing health care services over which such organization has review
.    responsibility and for which payment (in whole or in part) may be made under this
     Act, has demonstrated an unwillingness or a lack of ability substantially to comply with
     such obligations, the Secretary (in addition to any other sanction provided under law)
     may exclude (permanently or for such period as the Secretary may prescribe) such


                                               A-1
practitioner or person from eligibility to provide services under this Act on a
reimbursable basis. In determining whether a practitioner or person has demonstrated
an unwillingness or lack of ability substantially to comply with such obligations, the
Secretary shall consider the practitioner’s or person’s willingness or lack of ability,
during the period before the organization submits its report and recommendations, to
enter into and successfully complete a corrective action plan. If the Secretary fails to
act upon the recommendations submitted to him by such organization within 120 days
after such submission, such practitioner or person shall be excluded from eligibility to
provide services on a reimbursable basis until such time as the Secretary determines
otherwise.

    (2) A determination made by the Secretary under this subsection to exclude a
practitioner or person shall be effective on the same date and in the same manner as
an exclusion from participation under the programs under this Act becomes effective
under section 1128(c), and shall remain in effect until the Secretary finds and gives
reasonable notice to the public that the basis for such determination has been
removed and that there is reasonable assurance that it will not recur.

    (3) In lieu of the sanction authorized by paragraph (l), the Secreta~ may require
that (as a condition to the continued eligibility of such practitioner or person to
provide such health care services on a reimbursable basis) such practitioner or person
pays to the United States, in case such acts or conduct involved the provision or
ordering by such practitioner or person of health care services which were medically
improper or unnecessary, an amount not in excess of the actual or estimated cost of
the medically improper or unnecessary services so provided. Such amount may be
deducted from any sums owing by the United States (or any instrumentality thereof)
to the practitioner or person from whom such amount is claimed.

     (4) Any practitioner or person furnishing services described in paragraph (1) who
is dissatisfied with a determination made by the Secretary under this subsection shall
be entitled to reasonable notice and opportunity for a hearing thereon by the
Secretary to the same extent as provided in section 205(b), and to judicial review of
the Secretary’s final decision after such hearing as provided in section 205(g).

    (5) Before the Secretary may effect an exclusion under paragraph (2) in the case
of a provider or practitioner located in a rural health manpower shortage area
(HMSA) or in a county with a population of less than 70,000, the provider or
practitioner adversely affected by the determination is entitled to a hearing before an
administrative law judge (described in section 205(b)) respecting whether the provider
or practitioner should be able to continue furnishing services to individuals entitled to
benefits under this Act, pending completion of the administrative review procedure
under paragraph (4). If the judge does not determine, by a preponderance of the
evidence, that the provider or practitioner will pose a serious risk to such individuals if
permitted to continue furnishing such sefices, the Secretary shall not effect the
exclusion under paragraph (2) until the provider or practitioner has been provided



                                           A-2
reasonable notice and opportunity for an administrative hearing thereon under
paragraph (4).

     (6) When the Secretary effects an exclusion of a physician under paragraph (2),
the Secretary shall notify the State board responsible for the licensing of the physician
of the exclusion.

     (c) It shall be the duty of each utilization and quality control peer review
organization to use such authority or influence it may possess as a professional
organization, and to enlist the support of any other professional or governmental
organization having influence or authority over health care practitioners and any other
person (including a hospital or other health care facility, organization, or agency)
providing health care services in the area served by such review organization, in
assuring that each practitioner or person (referred to in subsection (a)) providing
health care services in such area shall comply with all obligations imposed on him
under subsection (a).




                                          A-3

     —




—.
                                 APPENDIX                             B

         OVERVIEW        OF DATA FROM THE OFFICE OF INVESTIGATIONS


B-1. PRO Sanction Referrals to the OIG, FY 1986 through FY 1992

         A By Type of Violation


     Type of            FY86      FY87    FY88            FY89        FY90        FY91        FY92       Total
    Violation:
 Gross &                 46       60       27             17           24          11          9          194
 Flagrant
 Substantial        I    19      I12I1O                       5   I       5   I       1   I    5     I     57
 Lack of                     1        0        0              0           0           0        0             1
 Documentation
 Total                   66172137                         22           29          12         14          252


         B. By Type of Provider


     Type of        FY86         FY87     FY88           FY89     FY90        FY91        FY92       Total
    Provider:
 Physicians             60       66       34             21           29          12          13          235
 (MD or DO)
 Hospitals              6         6        3              1           0           0           1            17
 Total                  66       72       37             22           29          12          14          252




                                                   B-1
B-2.     OIG Dispositionof Referrals from PROS, FY 1986 through FY 1992


         A   Sanctions Imposed by the OIG


       Type of      FY86      FY87   FY88        FY89     FY90     FY91     FY92    Total
       Sanction
 Exclusions          21       34     18          10       13       10       5        111
 Monetary             9       16      2           0        0        0       1        28
 Penalties
 Pre-exclusion
 Retirements*         o        0      2           1        1        2       0          6
 Total               30       50     22          11       14       12       6        145

*Pre-exclusion retirement results from an agreement among the PRO, the physician,
and the OIG that the physician retire from practice rather than be excluded. Because
the retirement would not have occurred without the sanction referral, the OIG counts
these as actions taken.


         B. Referrals Rejected or Closed by the OIG without Sanction


 Rejection Based     FY86     FY87   FY88        FY89     FY90     FY91     FY92    Total
        On:
 Unwilling or
 Unable                   o    19     11              4        4        2       2    42
 Requirement
 Failed to Follow
 Regulatory               4    10     12              6        2        1       7    42
 Process
 I_ack of Medical
 Evidence                 6     5      0              2        2        5       0    20
 Closed Due to
 Physician’s              2     0      0              0        0        0       0     2
 Death
 Total                12       34     23          12           8        8       9    106



                                           B-2
     B-3. Outcomes of Sanction Appeals to AdministrativeLaw Judges
                        FY 1986 through FY 1991


      Total number appealed to the ALJ          61
      Appeal withdrawn or settled**             32
     IIOIG decision upheld (concurrence)    I   19    II
     IIOIG decision overturned              I   10    II

     **Cases withdrawn or settled resulted in a sanction.



     Explanato~ Note:

     The data in Table B-1 are based on the date that a sanction referral was received by
     the OIG. The data in Table B-2 are based on the date on which a sanction was
     imposed. For example, a sanction referred by the pRO late in FY 1991 might not be
—.
     have been acted on by the OIG until FY 1992. Consequently, the numbers of
     referrals and sanctions imposed in any single year are not equal, since they are
     referring to different actions.




                                                B-3
                            APPENDIX                            C

                DETAILED COMMENTS ON THE DRAIW REPORT


In this appendix we present the full comments on the draft report and the OIG
response to each. The comments presented in this appendix are from:


                                                                                                         Page

——   —      —
TheHealthCa reFinancingAd   ministration           ............................                            c-2

The Public Health Service   . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . C-n

The Assistant Secretary for Planning and Evaluation              . . . . . . . . . . . . . . . . . . . . C-17

The American Medical Association        . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . c-22

The American Medical Peer Review Association                . . . . . . . . . . . . . . . . . . . . . . . C-25

The American Association of Retired Persons            . . . . . . . . . . . . . . . . . . . . . . . . . . C-29




                                             c-1
                                                                                            Heron   Care
                                                                                            Fh18~C!ngAd~lfIMUattOf7



                                                                                            Memorandum
     Date
     From       Acting Administrator

                Of ice of Inspector General (OIG) Draft Report:            ‘The Sanction Rcfemai Authority of
     Subject
                Peer Review Organizations,” OE1-UI-92-0C)250

     TO         Bryan B. MitchelJ
                Principal Deputy Inspector General


                       We have reviewed the subject repro which msesses the trends and problems
               associated with the use of sanction refcrrd autiofiy by prof~iond      I?etiew
               Organizations @ROs). ne ~~OS” sa~ti”on referral authority requires them to
               recommend that OIG sanction p~ysitia~ and hospitals ~es~nslhlc for violating their
-—             Medicare obligatic)n~ as spetied   in section llS6(a) of the Social Setity   Act.

                       OIG found that the number of sanction referrals made by PROS amually have
               decreased.   ~ ficaj year (~     ~9s7, PR~ refe~ed 72 ma for ~jlde          sanction to
               OIG. nis number dropped       to a kIw of ~2 h ~      IW1. p~~ for xvcn States have
               never referred a physician or hospital for sanctioIL In F’Ys 1~ and 1991, 24 of the
               43 PROS did not refer any physitim      or hospitais for sanctiom C)IG presented the
               following major factors that might account for the drop in the number of sanction
               referrals: the statutory li.nwilling or mable requiremen~” PRO# negative experiences
               m“th the sanction process, and the pROS’ emp~~k on edttcational approaches to
               quaiiwd of =re    problems.

                      OIG presented five policy options to be considered:

                      o         Repeai or substantially # modifi. the unwilling or unable requirement,

                      0         Increase   the   monetary penalty sanction substantially,

                     0          Eliminate the PROS’ sanction refemai authority,

                     0          Protide sanction mthoxity directiy to the PROS, and

                     0          ,Maintain PROS’ sanction rcfemai authority as it efits now, but mandate
                                referrals to State medical boards when PROS cotirrn serious quaii~ of
                                care problems.




                                                            c-2
Page 2- Principal Deputy inspector Gene:::

       HCFA’S smxific
                *      comments on the options and our proposed soiution
problem are a~:ached for ------ .-_ JA-_-.:-­
                         yuur curmucmwn.

       Thank vou for the opportunity to review md cement on this draft rcpor~,
Please advise is whether you agree with our position an the options presented in the
                                                             A



repon at your earliest convenience.

Attachmem




                                      C-3
            comments of the Health Care Financing  Administration (HCFA\
               on the office of Inspector Generti (OIG) Draft ReDon:
                      The Sanction llefemd~uthotitv of Peer
                      ~anizations,”           OEI-01.92-00250




 Repeai or substantiailv. modifi9 the !mwiuing or unable requirement.

 HCFA ResDonse

HCFA disagrees with this poiicv option. Under section l156(b)( 1) of the Social
Security Act (the Act), the Sec;etq of the ~epmmc~t     of Hea.ith and Human
Sewices is requ~e~ tO emjuate w~ether a pro~der ~ti demamtratcd       an unwillingness
or inability to ~mect a quality ofwc ~rob]emide~fid bya peerRcticw
Orgamzation (pRO). We rem~~e that iII past VCm the unwifig          or unable
reqwremcnt piaced a burden on PROS because t-he PROS had to determine if a
provider was unwilling or unable to wmect a qualitv of wc problem during the
informal retiew process. However, we beiieve tha; section 4205 of the Omnibus
Budget ~e~onciliation Act (OB~)     of 1~ h= ~p~ed        tic  determination of the
unwilhg or tmable rcquirernent. PROS are now required to protide an opportunity. to
establish a comemive action plan (CAP) e~qt when a W          would not be
appropriate.  The p~actitioner’s or provider’s f~wc to comply with the CAP or
correct the ~OJaliO~ after i~p~emc~tatio~    ofa CAP wodcibc sufficient evidence tO
support the PRO’S determination of unwilling or unable.

Policv Option 2

Increase the monetam. penaltv, sanction substantially.
                                                    .

HCFA Response

HCFA suppons an increasein monetary penaitv ~uthority. However, in such cases, it
is important tha~ the impact on Medicare beneficiaries’ health and well being be
paramount in considering whether a physician should be ailowed to continue practicing*
versus the imposition and collectionof a monetary penalty.

PO1icvOption 3

Eliminate the PROS’ sanction rcfcrrai authority.




                                       c-4
   HCFA Response

  HCFA does not agree with this option. PROS should retain their authority to
  recommend sanctiom to the Secretay when educariond effons have failed. We
  believe the PROS’ sanction refe~j autioti~ j,snc~~    for PROS to mfcguard the
  health and well being of Medicare beneficiaries.

  Policv Ontion 4

  Provide sanction authotity directiy to the PROS.                                      .


  HCFA Response

 HCFA does not agree with this option. We beiieve that the sanction authoriw
 requirement would place a signticmt burden on PROS. A resulting effect co~id be
 that PROS wouid be iess decisive in mating sanction dctefiatiom    imowing that they
 must impose them. We also beiicve that PROS would find it extremely dficuit to
 achieve and maintti national consfitenq when imposing sanctiom at a State jevci.
 we aiso beiievc that it would be inappropriate to cede to gove~ent   contractors the
 authority to exclude indtiduals and institutio~ born a gove~cnt   progrm.   For
 those reasons, HCFA beiieves that OIG should retain this authofi~ for uniformity and   —
 consistent   in imposing sanctions.

 Policv OtXion 5

Maintain PROS’ sanction refen=ai authority as it exists now, but mandate referrals to
State medical boards when PROS confirm serious quality of care probIems.                —


H_CFAllesDonse
                                                                                        —
HCFA w“il consider this option.    PROS currently have the authoti~ to disclose
 confirmed quaiity of care probJems to State mediczd boards. Tlc cumnt regulations
 at 42 CF2Z476.138 ailow PROS to prcx”de rekvant confidential information to State
 medicai boards on their own initiative and rquirc PROS to provide this information
when the State medicd board requests it. These regulations, however, do not address
                                                                                        —
mandatory disclosures without a request from the State medi~l board. We arc
currently rcvking the PRO cofidentiali~ regulations and will consider including the
requirement of mandato~ disclosure to State medi~i boards W“thouta request.
Fu~hennore, the Fourth Scope of Work (SOW) WU1require PROS to develop Wriuen
memoranda of agreement with State medical boards on what type of kiformation
(including timeframes) to exchange ~“th boards.


                                                                                        —



                                       c-5
  Page 3

  HCFA iS afso in the process of implementing funher requirements for information
  exchanges between PROS and State~ede@ Iiceming tXXM. Section 4205(d) of
 OBRA 1990 added section 1154(a)(9)(B) to the ACL TM provision requires
 itiormation sharing with the approptiatc State mcdi~ board after tie PRO prow”des
 the physician with notice and opportun.i~ for a hetig and has made a final
 (negative) decision. We arc also developing regulations @Q-13$F)    which will
 require a PRO to prw’de State/Fede~ licensing bodies with portions of any PRO
 sanction repoti forwarded toOIG which concerns practitioners that are subject to the
 State/FederaJ licensing body’sjurisdiction. This W implement section HO@)
 of the Act.

 HCFA’S Solution

 In the foumh round of PRO ccmtrac~ we are beginning a Health Care @aiity
 Improvement Mtiat&e. Under t~ initiative, PROS ~ a~~e            patte~  of health
care and patient outcomes. PROS wiU share this information with providers to heip
them identi& ways to i~provcp~tie~t   Outmmes md he c@@ ofWC. Under this
initiative, HCFA is emphasizing cooperative efforts at UIntiuous quaiity improvement,
rather than contiontation and punishmen~ We be~eve that ~nctions should be
imposed on prtiders only as a last resort to protect beneficiaries from poor quality
care.

~owever, we believe that the PROS’ sanction rcfe~ au~oriy ~ necessa~ in cases
where hospitah    or p@ic~a~    fafl to mpemte  with PROS  to CGKeCt identified patterns
of quality or utilization prO&Icm, Or fafi  toimprovetheirpatterns of care despite
repeated attempts to work with PROS through vohmtary action pians.

The Fourth SOW incjudes an kte~ted       strate~ for   actions &at   should be taken in
such cases. PROS will have the ch-oice ofi      ‘-

      0      imposing a PRO-directed    comective action plan;

      o      directly negotiating an action p~an with the physician if a hospital fails   to

             cooperate w“th a PRO to improve a physician’s care;

      o      referring zhe case to the HCFA regionai office for an investigation of a
             hospitai’s possible noncompliance w“th its Medicare provider agreement;

      0      referring a case of physician utilization problems to the cartier for
             prepayment review;

      0      referring the case to the appropriate State medicd board; or

                                                 C-6
Page 4

         0      beginning the sanction prws’

Of the listed alternatives, PROS VA be required to take the least disruptive
intemention necessa~ to comect the pattern of mntim.

.Generai Comments

Entire Renofl

OIG should review the Fourth SOW before issuing the final of this rcpofl.

Pages i and 3- 1st and 3rd bullets
                                                                                              —

Ae   12 referrais what OIG agreed to exclude? Did PROS subfit more than 12 cases?
                                                                                              —
I%uzesi and 4- 2nd bullet
                                   “43 PROS.” During fical years (FYs) 1~         and
 OIG should citify the referen= to
 lWI, HCA had 53 PRO con~c~ in place. It should be noted that some
 organi=tions have more than one PRO contmct.

 PaEes
   — i and 3- Methodo!o~


 The explanation of the methodology should have
                                            Also,included  the why
                                                   the reasom  number  of sanction
                                                                   sanction actions           —
 actions bc~n and closed at the PRO leveL
 were closed at the PRO level should also be included.
                                                                                              —
 A PRO is not nccessatily failing to utilize the sanction proces simply because it is not
 recommending sanctions. A factor in the decremed number of referrals could be that
                                “educating” practitioners/protiders in~olve~” me abi~@
 PROS have been successful in
 of a PRO to refer a practitioneriprotidcr
                                   “educated”forduling
                                                 sanction
                                                       the isinfo~al
                                                               an added  incentive
                                                                      review       tOthe
                                                                             process by the
 practitioner/protider to become

 PRO. Therefore, even if the PRO does not refer the practitioner/protider for

 sanction. the abili~ of the PRO to refer them for sanction may enable the PRO ~0

 correct many problemswithout actually utilting their sanction refemai authori~.

                                                                                              .

  Paces B - 1- Awendix B - CME         W lW1


  Were there 20 refcrrais by PROS (8 rejected and 12 excluded)?             -.




                                                                                              —




                                           c-7
Page 5



~C h     sentence is ~a~uratc.  PROS UC p~d for ~ ~ts they incur bcgirK@ w“th
the issuance of a ~Ction notice. me fi~ outamc of the case, the rcfemd to OIG,
does not affect thcti ability to recover their   expenditures.




                                        C-8
                     OIG RESPONSE TO HCFA COMMENTS

We disagree with HCFA that the 1990 amendments have simplified the determination
of the unwilling or unable requirement. We believe that the evidence is clear--l2
sanction referral cases in FY 1991 and 14 cases in FY 1992. In those situations when
it is appropriate to use the sanction referral authority, the PROS need to be able to
move swiftly to protect beneficiaries from harm. The past record of the physician,
rather than speculation about future behavior, should be sufficient to make that
judgement.

We welcome HCFA’S support for increased monetary penalties, which we called for in
1988. We strongly agree that beneficiaries’ health and well-being should be
paramount in any sanction consideration.

We are encouraged that FICFA is willing to consider the option to mandate referrals
to State medical boards when PROS confirm serious quality-of-care problems. The
fourth scope of work contains substantial changes for the PROS, including a
requirement that they develop written memoranda of agreement with State medical
boards. We urge HCFA to take advantage of this opportunity to speci~ that this
information sharing take place at the point when the PROS have confirmed, after
medical review, that a physician is responsible for medical mismanagement resulting in
significant adverse effects on the patient. Should it determine that legislation is
necessary to effect this change, HCFA could propose such legislation.

Based on the concerns that HCFA and other parties raise, we have omitted from the
final report the two policy options that would have eliminated the PROS’ sanction
referral authority and that would have provided that authority directly to the PROS.

We will be watching HCFA’S implementation of the fourth scope of work with great
interest. It is clear from our review of the request for proposals for the fourth scope,
that it contains substantial changes in the role of the PROS, with its focus on pattern
analysis and information sharing as a way of improving overall patient outcomes and
the quality of care. We applaud broad-based efforts to improve the quality of care for
Medicare beneficiaries and for the population at large. Notwithstanding this new
approach, the PROS continue to have a critical responsibility to protect the health and
well-being of Medicare beneficiaries. This responsibility may call for taking action
against individual physicians who practice in a manner that is harmful to the
beneficiary.

We agree with HCFA that the threat of a sanction may enable the PRO to correct
many problems. In this report, we are dealing with cases that were actually referred
for sanction. As we indicate in the finding that appears on pages ii and 7, “Despite
dwindling referrals, all the PRO officials we interviewed believe that the sanction
referral authority is important to achieving their mission because it gives them greater
leverage with the medical community.”



                                          c-9
The HCFA requests clarification on the number of referrals and exclusions. The
PROS referred a total of 12 cases to the OIG for sanction in FY 1991. The OIG also
sanctioned a total of 12 physicians in that fiscal year. It is only coincidental that the
numbers are the same. The 8 rejections include cases that were submitted prior to
that year.

The HCFA also questions our reference to 43 PROS, rather than 53 PRO contracts.
While there are 53 PRO contracts in place, some PROS hold more than one contract.
In fact, 3 of the 10 PROS with which we conducted our telephone interviews hold 2
contracts each, and one holds 3 contracts. We chose to count the organizations,
rather than the contracts.

We also have modified the text on page 6 to reflect HCFA’S suggested change.




                                          c-lo
—
                                                   sgf!YlcE9
            DEPARTMENT   OF HEALTH    AND HUMAN




                                        Draft   Report   ‘The SazictLm


Actixlfz­




xepofi.
              .




                                                w #S226




                               C-II
General   Ccxmnents




                             —




                             —




                      C-12
----   -




                                                    2




           The PES   supports   this   rucamdtim~




                                           C-13
                                                                                                  3




PES     Cemmanke

                                                                                  alxeady
                                                                                  ta have

   G POJ3CY mti            cm

                                                                                  it     exists
       PROs mnf Inn se.rf.ms             ~U&y+f-case                probkms.

PES    Comments

This  option wmlci provide                the unifozty af a natAonal
6~andazd    and activate    the           State m~cal   Xmxda’ $afet~
xnech.anisma. = additloxt,                this option could W modified
&ate      the PROS to report                  titividtaah        and Laatitittixks            the

Eedexatiom    of State   Medfcal               Bo~          ta -taatioz’d
aumre~~hnce            and gzofU&q,            and XLationaL c~ieuns.
AMhough          the   repoti      lacludes     this    policy      opti.m   ta        make
referrals to State mdicai bwmia, it does not indicate    that                                         .
the FedezutLOn of State Medfcti Boards %mZSecm~act-   to
provide  tiFUt.
Under      the    oRtiwn        af mandated ~f~als    ts State medical
bo=ds,       Lt kuld            be helpfti to have a bxief discussion  of tht?




                                       C-14
                                                                                                      —
               4




    —




—




        C-15
                       OIG RESPONSE TO PHS COMMENTS

We appreciate PHS’S positive response to this report. The PHS is playing an
important leadership role, particularly in its efforts to develop valid instruments for
assessing the quality and appropriateness of medical decisions, and by assisting in the
development of tools that could assist State medical boards and PROS in evaluating
poor performance by physicians.

The PHS finds merit in requiring PROS to report serious quality-of-care problems to
State medical boards, but raises some important concerns about the boards’ capacity
and focus with respect to review of cases that involve quality-of-care problems.                 —
Despite limited resources, some States are beginning to address these problems. We
have recently released a report that examines some of these initiatives, State Medical
Boards and Quality-of-Care Cases: Promising Approaches (OEI-01-92-OO050, February
1993).

The PHS also questions whether the decline in the number of sanction referrals                   —

occurred because of increased emphasis on educational activities. In this inspection,
we did not examine the relationship between educational activities and the number of
sanction referrals. In a previous report, however, we found that the educational value
of PRO intementions was uncertain and that the interventions seldom reflect research
findings concerning how physicians learn (Educating Physicians Responsible for Poor
                                                                                                 —
Medical Care: A Review of the Peer Review Organizations’ Efforts, 0EI-01-89-OO020,
February 1992).

Due to the concerns that PHS and other parties raise, we have omitted from the final
report the two policy options that would have eliminated the PROS’ sanction referral
authority and that would have provided that authority directly to the PROS.

We also have added to the text points raised    by   l?HS   cm the   implications of referrals
to State medical boards.                                                                         —




                                         C-16
    TO:          Bryan Mitchell
                 Principal Deputy Inspector General
    FROM :      Assistant Secretary for
                Planning and Evaluation




I offer the following comments on the two subject draft reports,
which. I have Litiea due to the interrelatedness of their
recommend.at
           iens.
In the first report, you         reviewed   the sanction referral authority
of peer review     organizations       (PROS), of whic~ referral to state
medical boards is one element. You recommended several policy
options for improvement, including a recommendation requirix2g
that state    medical boards be informed whenever a serious quality
of care problem is confirmed through medical review; this is a
lesser standard than is currently in place. In the second
report, you specifically         ~ined      the low fre~ency with which
PROS referred    cases     involving physicians cited for poor quality
of care to state medical boards. You reiterated the
recommendation concerning PRO-medical board contact contained in
the first report.
I agree with the obsemtions   made in these reports that the
formal sanction referral process is not often used.
Nevertheless, Z feel that the process is critical and, with
improvements, some of which you propose in your reports, I
believe it will play an important role in the primarily
educational efforts of the PROS under the Fourth Scope of Work
(sow) . I have the following comments about the findings, policy
options and recommendations of your reports.

o         ReD eal or substant iallv     modifv the unwillinq  or unable
          re auirement.    (Policv ontion 1. Renort on the Sanction
          Referral Autho ritv)      I agree   that the additional evidentiary
          hurdle for sanction of demonstrating.that a physician         is
          either unwilling or unable to comply with a corrective
          action plan is, at present, vague.         The report is written
          from the perspective of complete        repeal, however, and does
          not idenc=~y   how the requirement could be meaningfully
          modified.    Z suggest    that you clarify   better why the recent
          legislative change -- defining a physician’s failure to
          participate in a corrective action plan (CAP) as


                                        C-17
 Page 2-    Bryan     Mitcke~L
      demonstrated unwillingness or inability to conqiy -- 1S
      inadequate. Also, Z urge you to clarify how due process
      protections would be preserved in the event that the
      requirement was modified or repealed.
 o    Increase      the rnonetav nenaltv sanction substantially.
       (Policv    ontion 2, Renort on the Sanction  Referral .luth.orit’~j
      I agree     that this is an important policy opticn, and believe
      that it     would be a desirable alternative for the PROS, where
      patient     safety      would not be compromised.
0	    Eliminate the PROS’ sanction referral authoritv.                    fPolicv
      OD tion 3, ReDor~ on the Sanction Referral                 Authoritv)   This
     i8 a theoretical option only; without the tiility to impose
     sanctions in the face of aberrant or poor quality behavior,
     PROS would have little clout in certain circ~c~ces    to
     influence physician behavior. I would oppose this proposal.

0    Provide s~nct:cn aut~.oritv directly to the PR09.   ~Poiic’7
     ontion 4, IZeport on the Sanction Referral Authoritv)    There
     are actually two alternatives to OIG atinistration    of the
     sanctions process. The first is to decentralize   and give
     the PROS the direct authority  to impose sanctiors. The
     second is to move the authority from OIG to HCFI..                               —
     Decentralization     would be undesirable     for the reasons cited
     On page 10 of the Sanction Referral Authority report, with
     the additional concern that physician exclusion is too                           —
     serious    an outcome to cede without     central  review to the
     PROS, who are merely the contractual agents of the Federal
     Government.

     The second alte.mative, having HCFA pursue the sanction
     actions, ZISO may noc be desirable, but the report does not

     provide sufficient information to evaluate whether the OIG
     ‘bs   been     too    consemative    in its   choice   of   which   cases   to
     pursue, and whether this restraint -- rejecting, for

     examgle,     8 of 12 cases       referred   to it in ~ 1991 -- is
     itself contributing to the dwindling nuxnber of cases
     propos ed for sanctions by the PROS. IE appears             from t he
     statis tics in Appendix B that the PROS may be doing a be t n
     job at fol lowing the proper procedures for developing a
     solid   case.    No-justificatio~         or explanation is provided,
     however, for the increasing rate of cases rejected              by the
                                                                                      —
     OIG for lack ~f medical evidence from J?Y1988 to 1991. my
     is the OIG rejecting the medical advice of the PRO
     physicians? The report would be substantially strengthened
     by an objective evaluation of.the cases the OIG rejected,
     and by the discussion of the second alternative.
o	   Maintain PROS’ 9anction referral authoritv ag it exists nOW,

     but mandate referrais to State medical boards when PROS


                                         C-18
        Page             Bryan
                confi.m serious aualit’~-of-careDroblems.   (Policv ontion 5,
                Reuort on the Sanct~m  Referral Autkoritv and recommendation
                               D==v Review Oraanizat:ans and State .Medical
                of ze~orc “The ----
               Boards: A Vi,talLink” ~    I do not support this proFosal
               for several reasons. I would agree   that   the PROS and the
               State medical boards (and hospital licensure authorities,
               etc.) shouid be in closer contact. The most =ecent versions
               of the PRO Fourth Scope of Work include re~irements that
               each PRO develop memoranda of agre~ent     (MOAS) with such
               entities, within 60 days after the effective date of its
               contract, for the purpose cf mutual exchange of information
               and data. Such mutual exchange is far more likely      to
               contribute to improvement of quality  of  care  than a
               legislated re~irement for unilateral action.
               I understand that the provision of the 1990 Omnibus Budget
               Reconciliation Act re~irlng   PROSto ghare case information
               With sc~te ~Letiicalboardg hag notbeen iqlme~~sd   because
               it is unclear.  I understand that a technical correction to
               require the PROS to inform boards                      when a sanction
               recommendation        is      sent   to   the    OIG
                                                      been Sought   but that
                                                                      has
               it may not have been included among the OBRA technical     in
               the tax bill that will be sent to the President    soon. If no
               action has been taken on the technical change, it should be
               advanced again in the next session.
               It is not clear how the OIG’S proposal would                       differ   from the
               technical correction being sought by HCFA.                        It    would seem to
—              require      involvement   of the state medical               societies     at an
           earlier          stage,   prior to issuance of the               sanction
               recommendation        to the OIG and prior to the physician having
           the full opportunity to review and respond to the concerns
           raised by a PRO. Except for clear instances where patients
           are in hmediate danger, it does not seem fair or
           appropriate to essentially initiaLa a paral~el investigation
           by the medical society until there has been confirmation of
           a problem. This is particularly a problem in those states
           that require all c~laints    made to the state medical
           society to be made public, including reports from the PROS.
           I do not object to SUCh publicity where the physician has
           had ample opportunity to respond. to the PRO ud has been
           unwilling or unable to cooperate in the development and
           execution of a meaningful corrective action plan. However,
           such publicity is probably more useful as a potential
           sanction than as a context for obtaining physician
           cooperation for changed behavior.
           Furthermore, it is curious that the OIG is calling for
           mandato~   notification of the medical board prior to the
           issuance of the sanction recommendation to OIG. As
           noted above,  the OIG refused to pursue 5 of 12 cases
           referred to it in FY 1991 because of inade~ate medical
    �




                                                         C-19
                                          —..
    Paqe 4 - Bryan Mitchell

         evidence   from the PROS.me ~ep~r~= da nat explain Why it
         would be pro~ucc~ve or zpproDriate to engage the sczce
         medical Socieeies based on i~fo~tion   that the OIG itself
         feels is inade~ate  to justify a sanccion.
    Finally, the firgt three tales      Of Appega&     B of the   report on
    the Sanction Referral AuthoriEy     (sact=o~s    referzed   to the OIG,
    referrals rejected by OIG, sanctions iqoged by the OIG) do not
    agree and should be clarified.  For FYs19E7, 1988, 1989 and 1991,
    the sum of the sanctions imposed and referrals rejected exceeds
    the sanctions referred (cases are reso~~ed in a later year than
    they are referred?) . Similarly, the totals for all years
    involved do not agree.
    If you have any questions, please call Elise Smith at 690-6870.

                                Z’



                                 w




.


                                     C-20
                           OIG RESPONSE TO ASPE CO~

    We appreciate the comments from ASPE. We agree that the additional evidentiary
    requirement imposed by the unwilling or unable provision is vague. We believe that
    the evidence is clear--l2 sanction referral cases in FY 1991 and 14 cases in FY 1992.
    In those situations when it is appropriate to use the sanction referral authority, the
    PROS need to be able to move swiftly to protect beneficiaries from harm. The past
    record of the physician, rather than speculation about future behavior, should be
    sufficient to make that judgement.     -

    We welcome ASPE’S support for increased monetary penalties, which we called for in
    1988.

    Based on ASPE’S concerns and those of other parties, we have omitted from the final
    report the two policy options that would have eliminated the PROS’ sanction referral
    authority and that would have provided that authority directly to the PROS.

    We believe that it is important to have in place memoranda of agreement between
    PROS and State medical boards regarding the exchange of information. Unless they
    require the exchange of meaningful and useful information, such memoranda, in and
    of themselves, may do little to address physicians with quality-of-care problems. It is
    clear that little information is exchanged at present. The option described in this
—   report would require PROS to share information with the State medical boards only
    after they have confirmed serious quality-of-care problems through medical review
    involving the physician and the PRO physicians.

    We are concerned that ASPE’S comments may reflect some misunderstanding.             We
    wish to clari~ that this reDort refers strictlv to the role of State medical boards, not to
                               1                d



    State medical societies.

    We have also added text in appendix B in response to ASPE’S request for clarification
—
    on the data.




—



                                              C-21

——   __
         .he~ican         Nleciical      .%soci~tion
         Phvslcjansaealca[ea co [he nealchofknenca



        JamesS. Todd. MD              :15Nonh Stau? sulx?c          312464-5000
        ExecucweVice Resuient         Chicago,ihlOIS 60610                   Fax

                                                                    212464-4184

       October     Z2, 1992


       Bryan B. Mitchell

       Princi@ Deputy inspector

                               Genexai

—
       Department         andHumanSemites

                  ofHeaith

       OfficeofInspectorGenerai

       330Independence Avenue. S.W.
       Cohen~uikiing,I?oom5554
       Washiqgon. DC 20201

—     Dear Mr. Mitchell:

      Thankyou for prnvIciingtheAmericanMedicalAssoc~atton
                                                         (AMA) wuhthe oppmmmtyto rewew
      andcornmen~on the Office of InspectorGenend’s(OIG) chit mspecuon report enmled “The
      &ixxmonReferraiAuthorityof PeerRev]ewOrgamxmons.”The AMA has rewewedthe poiicy
      opttonssetforth
                    intheOIG’Sdtaft   report

                                            and offers the following comments. taking into account
      the OIG’S recentM management advisory report ermtled “The Peer Rewew Orgamzattons and
      State Medical Boards: A Vital tit’

      TheAMA supports keeping the “unwilling or unable” clause inthePRO statute.
                                                                             By inciuding

                                                                                      the
      specific
           recpirernentthat

                           theSecretary oftheDepartment    ofHealth
andHumanSemites
      demonstrate a physician’s i@iiity or unwillingness to compiy with pmgxarn obligations before
.—    being sanctioned. Congress expressed its beiief
                                                    tl’lat
                                                        itwouidbeinappropriate to exclude a
      physxcxanor other provider dm participationin the Medicare program unicss the physician or
      provider was cieariy unwilling       or unable to compiy with rhe ~rogram      obligations.

     The AMA opposes any    legislative or regulatory change that wouid ailow PROS to impose punitive
     monetary fines m excess of the acmai Or es~ated cosrs of the medicdly unnecessary or
—
     inappropriate semlces pmvlded. ~cmrdin@y,       tie AMA  strongiy opposes any etfort to increase
     the monetq penalty beyond its cument statutory limits.

      With respect to the o~er po@ opjons proposed by the OIG. he A-MAfavo~ the position that
—
     PROS should maintain the sancdon referrai authority as it cumentiy exists. h addition. as
     indicated in my ietter dated Oct,okr 14 to yOU. the AMAConceptua,ily    SUppOHS the OIG’S position
     @t PROS should refer to state medical boards any serious quaiity-of-c~ problems hat have been
.—
     confhmed by the PRO followingSpeciaity-spectixc     physicianreviewandcompletionof due
     process tights at the PRO levei. This poiicy option. which is consistent with Sections C.9.7 and
     C.9.8 in tie PRO Foufi SCOpe ofWork.would allow state medicai bards 10 take action in
     response to the pmvisxon of cam Of allegedly questiomblequality that may not meet the threshold
     requred for a sanction refed under the PRO program.

     AS YOU know,    the AMA     is WOmg    10 cicvdopCmmuctive and innovative a~proac~es10 enhance
     professional Self-m-tiarion.     The AMA is working to establish closer RiatioIQx benveen state
     hrds   and state memcaiassociations.
                                     Forexample.
                                              theAMA isactiveiy
                                                             pUWg                                    with the
     Federauon of State .NIedicai Boards      m arrangement     whereby   voiumeer   physicians     from state

                                                             c-22
 medical
       associations
                cotid
                    perform
                          part
                             ofthexnvestigtive
                                           andreview
                                                   funcdons
                                                          on behalf
                                                                  of.and
 under the supervision of. tie state boards. Such an arrangement should permit the boards to
 process a greaternumberof cam@aims.

 At present. state medical   associar.ions that   conduct peer rcwiew can tak oniy iimited action against
physicians.   The u.itimate sancuon~t state  medicdassociations   can@y ismvocafion      of
membership in the association. which. of course. has limited effect on physicians who are not
members of the association. Everypmcdcing@ysicianhas a ticense.however.and medicai
associationscan broadenthe scope and increasethe reievanceof their peer review activitiesby
assisting in the invetigafiom of state boards. h nun the actionsof the state boaxdscan be
impmved if PROSrefer seriousquaiity-of-care@Xems. contkned by spec~-spectic nwiewers
at the PRO levei. 10 the state baud for review.

h closing, the AMA favors the OIG’S policy option of having PROS maintain their current                     —
sanction refermi aurhority and. consistent with &. PRO Founh Smpc mfWOX refer to state
medicai boards any setiousqualky~f-cam pmbiemsconfixmedby the PRO folIowing speciaity­
specific physician review and completion of due process rights at the PRO leveL

Thank you again for pmwciing the AMA with the opporumity to rmnew and comment on your
draft insptxmon repoK. We look fonvard to a continuingdiaiogue.

Sincerdy,
       n               /


   ~             ,   ‘&__]~fl.
       /“-
 ,.”




Jqes    S. Todd.MD
                                                                                                            -—



                                                                                                            —




                                                                                                            -—




                                                       C-23



            —-   -——
                     OIG RESPONSE TO COMMENTS FROM ‘ITIE AMA

     We appreciate   the AMA’s comments. We acknowledge their opposition to changes in
     the unwilling or unable clause and to increased monetary penalties for medically
     unnecessary or inappropriate services.

     Based on the concerns raised by the AMA and other parties, we have omitted from
     the final report the two policy options that would have eliminated the PROS’ sanction
     referral authority and that would have provided that authority directly to the PROS.

     We believe a full range of quality assurance approachesare required. One approach
     that would complement the efforts of the AMA and State medical societies is earlier
     information sharing between PROS and State medical boards. This exchange could
     take place when the PRO physicians have confirmed, after medical review, that a
     physician has been responsible for medical mismanagement resulting in significant
     adverse effects on the patient.




—



.—




—



                                             C-24

                                                                                             A1’iF?d                                                      AMEEIC~NMEDICAL.
                                                                                                                                                                       %: REWEAIASS~CIATION
                                                                                         .~“0F rsI:i!re~;.
                                                                                                        IVE.                          �   Stijte41)   .
                                                                                                                                                          T’/asn\ngron,
                                                                                                                                                                     !).C.20002 .   292)371-5610. FAX.(202)S71-6954

                                                                                                                                  November 10, 1992



                                                                                                                                 Bryan B. MitcheU
                                                                                                                                 Principai Depurv Inspector General
                                                                                                                                 Depanment of Heaith & Human Services
                                                                                                                                 Office of the hspector General
                                                                                                                                 Wa@yoU DC 20201

                                                                                                                                 Dear Mr. MitcheU:

                                                                                                                                Thank you for sending mea draft copy of the repo~ ‘The Sanction Referrai
                                                                                                                                Authoti~ of Peer Re~iew Orgtitiom”.
                                                                                                                                                                               AMPIU appreciates the
                                                                                                                                oppornmi~ m coxnrnent. ti” remarks focus on the rep~fi’s five pdic;
                                                                                                                                options.                                                               .

                                                                                                                                For several years now, the unwMng or I,UIMe stand~d    - at the AIJ level -
                                                                                                                                has been a difficuit test to xnee~ Absent di.redo~ Ws vtied wide~y in

                                                                                                                                their interpretation. finding some physiti~  able became they possessed a

                                                                                                                                medical degree and ]ther willing even thou@ they retied interaction at the

                                                                                                                                PRO levei.


                  :.d,.,~”                            :      -          . .
                                                                                          :U                     PA   f4c(3
                   - 1-.-..-,,                                            !            .’, ,

                                 ... ..                   -.                                  ,,7
                                                                                                             ,

                           -=.               ,
                                                                  ,.,         ,        ,,.
                           .-




                  ....p&.-
                      .-                                                          !.
                                                                                             ::


            _.,                   z
                                                                                       ,Ir              .1



                -:, ----
                            -c:--

                       .
.
                    .,-                                                                ,.           ,


          ,—#.-
              --                                            .-
                                                                                                                              In essence, the ianWage passed in OBM              1990 shpiy citied       the law

        ,.:,-
          -- -;.-:=                                       ---n<:;                            --- --:.,
       =.Grz                                               ,.-                                                                relating to PRO sactiom          by provitig    that in dete

                  ., ----                                                                                                                                                                   xmining whether a

       ___
                                                                        ,. ,
                                                                                                                              practitioner or person is “untitig   or unable”, tie Semew      shall consider the
         z---                                      ~---- . ..
       =“,               ”.-..                        . .                                                                      practitioner’s or pemon’s Wilfingess or lack of abfi~, duxing the period
      :.,           .A,          ,,

                                                                                                                               before the PRO subtiT,s its report and reco~endatiom,      to enter into and
      .:,                T,           . .   ..Z.                  -
                                                                    ‘.”
                                                                      \ ‘i
      ‘.:,
        .*.+,,..
             -                                                   ,,.
                                                          successfully complete a correaive action pl~    It fi imponat to note that
      :=c:~~=                                       -_=          -,:,,,,
                                                                                       J-
                                                                                                  c                            development of a course of corrective action is no[ mmdato~ in every
                   7,!’-----                                 -;
                                                                                                                              instance. Indeed, the stamto~ change contined iII OBRA 90 is prefaced by
            -

      .“.       .,r               ---                     *.]f..

                                                                                                                              the ciause, “if appropriate”. MPW       was supportive of this provision and
                                                                                                                              worked with the Office of Inspector General and the Dep~ment of Heaith
                                                                                                                              to assis~ in immediate com.muti=tion to AIJs, px=atitionem/protiders and
. ....                                                                  r-.                                                   peer review orgatitions.
-,,               .,.,




                                                                                                                                                             C-25

  November 10, 1992
  Page Two


  Regarding your secondpoficv  . optio~~~       ~Orn~e~ded in1990andstill
  maintains thatthePRO statute shouid be amended to increase ciyii monetary
 penalties fkomthe cost of the setice in question to up to $10,000. Present
 statue enables PROS to fine or exciude providers/practitioners for failure to
 coxnpiy with their Medicare obligations. me law stipulatesthat such civil
 monetary penalties shouid notbe “anamount in excess          of theactuai   or
 estimated cost of the medicdy improper or unnecessaq services so provided.”
 Ofte~ the cost of actual senice in question is minuscule and not an effective
 remedy to affect future physician behavior.          Indee& thousands of
 atitrative     dollars are spent by PROS in kk@@       and vekfi~ng 2 sefice
 thatwas improper or unnecessary.

 AMPW         believes that PROS shouid have the flexibility to recommend hizher
 pcnaities    than the cost of the semice in questim and-likewise, the Inspe-aor
 Cenerai     shouid be empowered with the authority to fipose a fine of up to
 $10,000.     This position is aiso endorsed by the Administrative Conference of
the United States. A higher threshold is needed to gmer the attention of
facilities/practitioners and to provide a meaningful alternative to exclusion
tiom the Medicare program

AMPRA opposes elimination of the PROS sanction referral authoritv. The
PROS need sanction authority to: protect beneficiaries anti as leve;age tO
motivate providers to take actiom

MRA                                                                      The
             also opposes providing sanction authority directly to the PROS.
govemxnent as the sponsor of Medicare s~ou Id no? abdicaze their
responsibility to make End decisions on sanction cases. Giving sanction
authority directiy to PROS wouid also COnfiict witi the more educational role
of PROS.

AMPRA supports that the existing provisions relating to the exchange of
itionnation between peer review organizations (PRC)S) and State medical
Iicensing boards be amended to require information exchange eariier in the
nwiew process       and   to remove administratively burdensome procedural
barriers to such information      exchange.  Absent these changes, AMPM
recommends repeai of the entire provisiom

Once agai~ OBIU 90 included provisions relating to the exchange of cemin
types of information between peer review organizations (PROS) and medical
licensing boards. Changes in these provisions are needed, inciuding severai
technical corrections.  H.R. 1555, a technical corrections bilI passed by the
House of Representatives   at the end of 1991, includes a provision correcting



                                C-26
  November 10, 1992
  Page ?hree


  severai drafting errors in OBIU 1990. However, the biii did not aiter the
  requirement that PROS notify State licensing boards oniy once they have
  submitted a form.ai sanctions rem~e~~~o~    10 tie ~me~    and ody after
  “notice and a hearhg.”

 AMPRA      continues to believe that PROS should no@ stite licemtig boards
 about problematic care earlier in tie pro~-i.eq       tier a fit noti~ of
 proposed sanction is senq the practitioner or person involved K offered iuz
 opportunity to discuss the matter with the PRO, M@ the PRO ~            that
 a problem exists. In additio~ we believe that the provision requhg   a PRO
 to hold a heaxing before noti&ing the State iicensing board is unnecessarily
 burdensome and not needed to &ord ade~~             due process to affected
 practitione~ and providers. AMPRA su~rts a peer discussion - not a kgai
 proceedin~

 AMPRA wiii contiue to urge the COngrCSSto rno@ the PRO statute in a
 manner consistent with these views. How’kver, if such changes are not
 feasible, then MM     recommends repcai of tile entire provisio~

Thank you for the opportunity to comment on the draft reporL We recognize,
of course, that the muitiple steps in tile PRO djud~tion    prom    designed
to assure due process to di invoive~ are time-consumin g and may require
considerable effort on the part of physi~          patients and others. We
welcome suggestio~ for _            —  he   p~CCSS  more efiticnt and Is
burdensome. U you have any questions please contact me.

Sincereiy,




Liiiz@
Executive Vice President




                           C-27
                           OIG RESPONSE TO AMPRA                COMMEIVIS

We    appreciate       AMpMs    positive   response   to this report.   We wish to acknowledge
the   organization’s     efforts over the years. The AMPRA          has worked with the
Department, the Congress, and the provider community to develop and improve
methods for addressing quality-of-care problems.

In response to the concerns raised by AMPRA and other parties, we have omitted
from the fkal report the two policy options that would have eliminated the PROS’
sanction referral authority and that would have provided that authority directly to the
PROS.




                                                                                                 —



                                                                                                 —



                                                                                                 —



                                                                                                 —




                                                                                                 —



                                                                                                 —




                                                                                                 —



                                                                                                 —




                                                 C-28
                                               Af!!!
                   Bringzng iaj’’timcs o~-cxpcrtcnct ani lcaarcrsnip lo serve niigcncrarions.

  October 23, 1992


 Bxyan B. Mitcheil
 Principal Deputv Inspector General
 Office of Inspector Generai
 Department of Heaith and Human Sexvices
 330 Independence Avenue, S.W.
 Washington, D.C. 20201

                                                                   Re: Comments on draft Peer Review
                                                                          Organization reports

 Dear Mr. .Mitcheil:

Horace Deets has asked me to respond to your letters of September 3 and 15, 1992.
The Office of Inspector General -- in its two draft repom “The Sanction Refemd
Authority of Peer Review Organizations” and ‘The Peer Review Organizations and State
Medical Boards: A Vital Link” - has pexformed an important service for Medicare
beneficiaries in assessing the cument status of P~OS’ sanction activity and the degree of
data exchange bemeen PROS and rnedicai licensure boards (MLBs).

Because the two reports have arxived in tandem and deai Mth complementary issues, we
are responding in one letter.

In view of WP’S        longstanding positions on PRO sanctions and pRO-MLB reiations. we
are distressed, although   not sux-pfised. by the OIG’S findings.               ‘1’’hmu@ investigation.
statistical
         anaiysis,and review     of a Citizens Advocacy Center PRO-MLB survey, the
findingsconfirm that 1) the PRO sanction authority has atrophied, and 2) the PRO-MLB
data exchange, with one or two notabie exceptions,    has failed to develop -- this despite
legis~ative efforts in 1990 to address problems concerning both thuse areas.

As the reports indicate, the PRO program -- moving into the fourth contractual scope of
work -- is in the process of undergoing a shift in focus and methodology towards an
educational, “continuous quaiity improvement” (CQ1) modei of interaction with doctors
and hospitak. .WP has engaged in an extensive dialogue with lKFA with respect to
this evoiution. Whiie supportive of the increased use of profig and feedback
mechanisms to improve the quality of care, we remain convinced that PROS must have
an ongoing ability to identi~ and act upon serious threats to patient care arising from
incompetent performance. PROS’ abiiity to reso~ to sanction proceedings, as weil as
their ability to interact with licensure boards in appropriate cases, remain essentiai
eiements of PllOs’ mission to heip protect patients.
    Brvan B. Mitchell
    O&ober 23, 1992
    Page 2


   PRO-MLB Interaction




                                                                                                               —




  Accordingly, we weicome vour current recommendation that PROS be mandated to
  “provide case information “to state medical boards when they have co-ed,       after                         —
  medical review, that a physician is responsible for medical mismanagement resulting in
  significant adverse effects on the patient.” We would suggest that the proposal clearlv
  indicate that it is in addition to the information exchange contemplated by the 1990            �




 recommendation, and not a substitute. The goai is to ensure that PROS inform licensure
 boards not only about the most serious probiem cases -- those potentially “sanctionable”
 under the statuto~ definitions of the PRO law -- but also about those other prob~em                           —
 performance cases that. whiie vexy setious, are addressed soieiv through comective action
 initiated accordtig to PROS’ contractual scope of work.          “

Although your draft recommendation is for additional legislative action, we suggest that
the data shining recommendation be stated in the aitemative, i.e., HCF’A shouid either
pursue an amendment or use its ndemaking authority to achieve the desired result,
whichever path appears to be the most expeditious.
                                                                                                           .
A reported in the draft, there have been some impressive instances of voiuntarv
exchange along the lines of the proposai, in Ohio, particularity, where the PRO has used



                                                                                                          —

     1Under Section 1156 of thePRO law, sanctions may be pursued based upon a physician’s or provider’s
failure in ‘a substantial number of cass subsuntiallv to compiy with” quaii~ of care obligations. or a
                                                                                                          -.
physician or protider ‘grossly and flagrantly” violating such obligation “in one or more ins~anos.”


                                               C-30
  Bman
    .    B. Mitchell
  October 23, 1992
  Page 3


  its current discretionary authotity under etisting regulations to share matefiai concerning
  ail “Ievel three” quality problem cases (the most serious cases).2

 The OIGS recommendation for a new data exchange mandate does involve addressing
 some impediments. Not the least of these is the major transformation of the third scope
 of work’s “Quaiity Intemention Pkm (QIP),” which, by elimination of the cument three
 levels of quality problems, necessitates development of a new “formula” for PRO-MU
 information exchange. As of the release of the October 1 fourth scope of work
 documen~ the precise elements of the new “QUaiityIleview Process,” inchxiing the
 contents of a new “Physician ileview &sessrnent I?orm” (PW    and the “weighing”
 system for idenl~g   problems and instizut~ng Correctie action
                                                              plaxM(CAPS),remained
 underdevelopment.   intheongoingprocess   offleshingoutthefourth scopeofwork.
 &UU? intends  toseeka quaiitv4 reviewsvstem
                                       d     thatcouldfacilitate
                                                               thekindofPRO-MLB
 exchange contemplated by the OIG’S re~ort and recommendation.

 The PRO Sanction Referral Authoritv

 The “motibund” nature of the PRO sanction referral authority is strikingly documented in
 your latest statistical findings.

 Two of the three explanations -- the PROS’ cumulative unhappy experience with the
 sanctions process and the increasing emphasis on educational approaches to quality of
care problems - appear well on target. A for the third, the statutoxy “unwiiling or
unable” requirement, we beiieve the 1990 le@iative “M’3, ~ properiy constmed and
aggressively implemented, would, infact? be a significant ixnprovexnent. This is not to say
that outright deletion of the requirement wouid not have been a better legislative


    z Under the PRO data disclosure regulations, 42 CF.IZ.   476.138 (a)(I)(ii) a PRO may provide
“confidential” information to a state licensure body without a requ=t.

    3The language of OBRA-90, which represented a compromise, was intended to remove the most
objectionable features of the “unwilling or unable” requirement. The 1990 amendment defined the
“unwiiIing or unable” standard in terms of a physician’s failure to enter into and satisfactorily compietca
correctiveactionpian (CM). The PRO, however, was left with discretion in ea~ case as to whether to
offera ~.     me resuit, as we read the revised section, is that a pRO’s judgement that a sanctionable
offense was such as to necessitate an immediate sanction recommendation wouid enable the Secretary to
consider the “unwiiling or unable” requirement mnstmctiveiy met and thereby move to implement the
recommendation   without   fear of subsequent   attack at the administrative   hearing levei.


        In the early drafts of the foumh scqe of wor& HCF/Lin our view, fafled to accurately reflect this
compromise approach by appearing to ignore PROS’ case-bv-case authority to decline to offer a CAP. The
July and now October redrafts have been retied to embody the 1$390statutory sanctions language.


                                                    C-31
 Bxyan B. Mitcheii
 October 23, 1992
 Page 4


 outcome; the Administrative Com”erence of the. United States urged this course in 1989,
 and AARP supported it.

 The overail issue of PROS’ use of their sanction authority, however, remains a criticai
 one. Your draft report xnaicesa major contribution towarb our ~derstanding      of the
 background of the problem. The repo~ makes a further cont~bution in its discussion of
 a number of possible “comectie” options ranging horn ourn@t e~ation     of the PRO
 sanction authority to mtiten~ce     of the status quo, supplemented by kcreased referrais
 to medicai boards.

 To begin with the negative: our current view is that neither elimination of PROS’
 referral authority nor provision of c@ct   sanction   autmo     them would be in the
public interest. On the one hand, we agree with the PROS that the etitence of the
authority, however sparingly used, is, in the words of your drafg “important to achieving
their mission because it gives them ieverage w“th the medical community.” On the other
hand, we beiieve it would be unwise tO vest p~ate peer re~ew orga~tions        with what
we perceive to be a govemme~tai     (either federai or sate) ~c~on,  nmeiy   the power to
actually impose financiai penaities or actually remove p~c~tionem horn practice.                —


k our view the answer 10 the sanctions dile~a      reqfies a combination of approaches.
AARP is on record as favoring eiixnination of the “un~il~g or unable” requirement
(although, again, the 1990 compromise amentient, K properiy implemented, couid go
far towards resoiving that particular problem). ne ~socialion h= also stated its
SUppOrtfor a substantial increase in the avaiiable monetay pen~ty. ~ noted, these two
recommendations have been pending for years and have not been enacted. There~ore.
we believe thereisa riced   for a new focus. nerefore,    we endorse your fifth
recommendation - to require PROS to send information to medicai licesure boards - as a
workable approach.
                                                                                                —
 It is important, once and for ail, to establish a good wor~g relationship between PROS
and licensure boards. The PRO pro~am is c]eariy at a crossroads as it prepares to enter
a new worid of pattern anaiysis, outcomes research, education~ feedback and CQI                 .
activities. But as we have said in the past and continue to beiieve, there are some
doctors and some institutions whose poor petio~ance wam~~ ciose oversight and/or
interruption. K PROS’ new roie is to funher emphasize the educator over the sanctioner.
then it is imperative that more information regarding such poor pe~o~ance be directed
to the entity that can act as disciplinarian -- the medical licensure board. Xntheir recast
roie, PROS’ abiiity, authority, and willingness to share info~ation with boards in
appropriate cases and on a timeiy basis will be essentiai to the overail fulfillment of their
patient protection mission. At the same time we beiieve a ve~ important additional
element is the need for cioser cooperation and coordination be~een HCFA and OIG in

                                            C-32
     Bman B. LMitcheli
     O&ober 23, 1992
     Page 5


    giving guidance to the PROS, facilitating their sanctions efforts, and enabling the
    Secretary to iqiement his statutory responsibilities. We tnxst that such coordination wiiI
    accompany any approach that is adopted.


    Conclusion

    We appreciate the opportunity to respond to your two draft reports on aspects of the
    operation  of the PRO program. Once again, the Office of Inspector Generai has focused
    on significant issues of concerm to the Medicare population and contributed thoughtful
    recommendations. If you have any questions or we can be of funher assistance, piease
    contact Cheryi Matheis of our Federal Affairs Depamnent (202/434-3770).

    Sincerely,


+=
w
 John Rother
 Director
 Division of Legislation and Public Policy




                                             c-33
                  OIG RESPONSE TO COMMENTS FROM AARP

We appreciate the AARP’s     positive   response   to the draft   report.    We agree that the
ability of the PROS to resort to sanction proceedings remains an            essential element of
their mission.

With respect to AARP’s comment about the 1990 legislative change in the unwilling or
unable standard, we note that experience since that date leaves little reason to believe
that the problem has eased. In FY 1991, PROS referred 12 cases for sanction, and in
FY 1992 they referred 14 cases. The PROS themselves also cite the unwilling or                     .
unable provision as a continuing obstacle to their use of the sanction referral authority.

Based on the concerns raised by the AARP and other parties, we have omitted from
the final report the two policy options that would have eliminated the PROS’ sanction
referral authority and that would have provided that authority directly to the PROS.
                                                                                                   —
We agree that a good working relationship between PROS and medical boards is
important. Enhanced information sharing between the two will not eliminate the need
for the PROS to be involved in sanction activities. The PROS’ ability to sanction
physicians who violate their Medicare obligations needs to be maintained even as they
move toward an increasing emphasis on education.
                                                                                                   —




                                                                                                   —




                                                                                                   —




                                            c-34
                              APPENDIX                       D

                                        ENDNOTES


1. Medicare-reimbursed      physicians and providers are required to comply with their
statutory obligations to (1) provide services that are “economical and only when, and
to the extent, medically necessary,” (2) provide setices that are “of a quality which
meets professionally recognized standards of health care,” and (3) provide services that
are “supported by evidence of medical necessity and quality” (42 U.S.C. Sec. 1320c-5,
section 1156 of the Social Security Act).

2. 42 U.S.C. Sec. 1320c-5.

3. office of Inspector General, Z7ze utilization and Quality Control Peer Review
Oganization (PRO) Program: Sanction Activities, 0AI-01-88-O0571, October 1988.

4. These 10 PROS held contracts for peer review in 15 States:  Alabama, Iowa (holds
contract for Nebraska), Michigan, New Jersey, New York, North Carolina (holds
contract for South Carolina), Oregon, Pennsylvania, Rhode Island (holds contract for
Maine), and Washington (holds contract for Alaska and Idaho).

5. The 235 sanction referrals against physicians since the inception of the PRO
program involved 220 different physicians because the PROS referred some physicians
more than once.

6. Based on 439,580 non-Federal patient-care                 1986 and 471,692 in 1989,
                                                    physicians   in
the most recent data available (American Medical Association, Division of Survey and
Data Resources, Physician Character&tics and Di+stn”bution,1990), Table A-8.

7. The PROS for the Virgin Islands, American Samoa, and Guam also have made no
referrals.

8. The 23 PROS that made no sanction referrals in FYs 1991 and 1992 are Arizona,
Colorado, Connecticut, Florida, Georgia, Hawaii (also holds the contract for American
Samoa and Guam), Kansas, Louisiana, Massachusetts, Minnesota, Mississippi,
Missouri, Montana (also holds the contract for Wyoming), New Hampshire (also holds
the contract for Vermont), New Mexico, North Dakota, Oregon, Pennsylvania, Rhode
Island (also holds the contract for Maine), South Dakota, Tennessee, Utah (also holds
the contract for Nevada), and Virgin Islands. These PROS represent 26 States plus
the Virgin Islands, American Samoa, and Guam.

9. Based on non-Federal, patient-care     physicians   as   of January 1, 1989 (Physician
Charactetitics and Distribution, op. cit.).




                                              D-1
10. From FYs 1986through 1992, the Office of Inspector General has sanctioned 142
physicians and 3 hospitals (fined 2 and excluded 1).

11. Office of Inspector General, PRO Technical Information Memorandum No. 2,
July, 1987. Also in an undated paper, “Due Process in the Peer Review Organization
(PRO) Sanctions Activities.”

12. Calculation based on the length of exclusion prior to any appeal actions and
excluding three exclusions fol an indefinite term and one permanent exclusion.

13. lle Utilization and Quality Control Peer Review O~anization (PRO) Program:
Sanction Activities, op. cit.

14. Administrative Conference of the United States, Recommendation 89-1, “Peer
Review and Sanctions in the Medicare Program” (Washington, DC: June 1989).

15. A corrective action plan (CAP) is the PRO’s suggested method for correcting the
violations the physician or hospital has made. The CAP can include coursework,
refresher residencies, and reading assignments, among others.

16. The Utilization and Quality Control Peer Review Organization Program: Sanction
Activities, op. cit.

17. Health Care Financing Administration, Directed Change Order (DCO) 91-4,
“Implementation of a New Statutory Requirement Mandating the Use of Corrective
Action Plans Prior to Recommending a Sanction Action.”

18. The PRO is required to have at least two meetings with the physician before
referring a sanction based on a substantial violation. One meeting is required before        —
referring a sanction based on a gross and flagrant violation.

19. For example, the PROS failed to send the requisite number of written notices to
the physician or hospital or failed to offer the requisite opportunities for meetings with
the PRO.

20. The OIG rejected two referrals because the physicians died.

21. Of the 61 sanctions appealed to an ALJ from FY 1986 through FY 1991, 12 were
                                                                                             —
overturned.   The OIG appealed 2 of those sanctions overturned by the ALJ and won.

22. In a 1988 study, we found that the PROS considered their quality assurance
activities to be more important than utilization review and to have received more
focus during their second contract period (Office of Inspector General, Z?ie Utilization
and Quality Control Peer Review (PRO) Organization Program: Quality Review
Activities, 0AI-01-88-O0570, August 1988).

23. Directed Change Order (DCO) 91-4, op. cit.



                                          D-2

    24. Health Care Financing Administration,     Request for Proposal, Fourth Scope of
    Work, (October 1, 1992), p. C-1.

    25. G. R. Wilensky, “Medicare’s PROS Change Their Focus, Broaden Their Mission,”
    Journal of the American Medical Association 266, No. 20 (November 1991), p. 2810.

    26. Health Care Financing Administration, Results of the Peer Review O~anization
    Review for the Z%irdScope of Work (based on reports submitted through 4/30/91 and
    reviews completed through 3/3 1/91), July 25, 1991.

    27. Sanction notices are written letters from the PRO to the physician or hospital
    responsible for the violation and indicate the start of the sanction process. Notices
    must cite the Medicare obligations violated, describe how the obligation was violated,
    cite the PROS’ sanction referral authority, suggest a corrective action plan (at the
    PROS’ discretion), invite submission of additional information, and review information
    on which the PRO based its decision.

    28. See l%e Utilization and Quality Control Peer Review organization (PRO) Program:
    Sanction Activities, op. cit., and State Medical Boards and Medical Discipline (OEI-Ol-
    89-00560, August 1990).

    29.	 In our 1988 report, 771e Utilization and QuaIity Control peer Review Oqanization
    (PRO) l?ogram: Sanction Activities, as part of a series of recommendations   to
    strengthen the PROS’ sanction referral function, we called for congressional action to
    eliminate the unwilling or unable provision as a basis for a sanction referral. In 1989
    the Administrative   Conference of the United States made the same recommendation.

    30. In our 1988 report we also called for the development of legislation to strengthen
    monetary penalties to make them an effective sanction. We recommended that a
    penalty of up to $10,000 per violation be imposed for substandard, unnecessary, or
    uneconomical care.

    31. State medical boards often are criticized as being ineffective quality assurance
    bodies. However, data from the Federation of State Medical Boards show that in
    calendar year 1991 they imposed 2,804 prejudicial actions against physicians, 959 of
    which involved a 10SSof license or license privileges, and 1,110 a restriction of license
    or license privileges.

    32. Office of Inspector General, Tile peer Review Organizations and State Medical
    Boards: A Vital Link, OEI-01-92-00530, April 1993.

    33. From May 1990 until April 1992, the Ohio pRO referred 75 cases to the Ohio
    medical board. The board dismissed 13 of these without any active investigation and
    another 37 after conducting some investigation. The remaining 25 are in various
    stages of review, with 8 at an advanced stage involving the initiation of a formal action
    against a physician. For more information, see our companion report Peer Review
    Organizations and State Medical Boards: A Wal Link.


                                               D-3


—
